IN THE

Supreme Court of the United States
___________________
No.
________________________________
MARK ANTHONY SPELL,
Petitioner,
v.
STATE OF LOUISIANA,
CITY OF ZACHARY
Respondents.
______________
PETITION FOR A WRIT OF CERTIORARI
TO THE CITY COURT OF ZACHARY, LOUISIANA,
Hon. Judge Lonny A. Myles, Presiding
4510 Main Street,
Zachary, Louisiana 70791
____________
Jeffrey S. Wittenbrink
Counsel of Record
331 St. Ferdinand Street
Baton Rouge, Louisiana 70802
(225) 308-6850
jwittenbrink@thelawyerbr.com

i
QUESTIONS PRESENTED
This case presents the following questions:
1. Does the Sixth Amendment permit the prosecution
of a misdemeanor speeding ticket after the lapse of
more than twenty years if there is no evidence the
Defendant absconded from the jurisdiction, or the
State took steps to prosecute?
2. Does Fifth and Fourteenth Amendment Due
Process allow a state to hold and prosecute a routine
misdemeanor in perpetuity if the State statute allows
such a circumstance?

ii
RELATED CASES
City of Zachary v. Mark Anthony Spell, No. 99-0672,
City Court of Zachary.
Judgment entered Aug. 5, 2020
State of Louisiana v. Mark Anthony Spell,
No. 2020 KW 0867, Louisiana Court of Appeal, First
Circuit. Judgment entered Feb. 18, 2021
State of Louisiana v. Mark Anthony Spell,
No. 2021-KK-00403, Louisiana Supreme Court.
Judgment entered May 11, 2021

iii
TABLE OF CONTENTS
Page:
QUESTIONS PRESENTED ........................................ i
RELATED CASES ...................................................... ii
TABLE OF APPENDICES ........................................ iv
TABLE OF AUTHORITIES ....................................... v
OPINION BELOW...................................................... 1
JURISDICTION.......................................................... 2
CONSTITUTIONAL PROVISIONS INVOLVED...... 2
STATEMENT OF THE CASE .................................... 2
REASONS FOR GRANTING THE PETITION ......... 4
CONCLUSION.......................................................... 13

iv
TABLE OF APPENDICES
Page:
APPENDIX A — OPINION OF THE SUPREME
COURT OF THE STATE OF LOUISIANA,
DATED MAY 11, 2021 .......................................... 1a
APPENDIX B — ORDER OF THE STATE OF
LOUISIANA COURT OF APPEAL, FIRST
CIRCUIT, DATED FEBRUARY 18, 2021 ............ 3a
APPENDIX C — EXCERPTS OF TRANSCRIPT
OF THE PARISH OF EAST BATON ROUGE,
ZACHARY CITY COURT, STATE OF
LOUISIANA, DATED AUGUST 5, 2020 ............. 4a
APPENDIX D — RELEVANT STATUTORY
PROVISIONS ...................................................... 24a

v
TABLE OF AUTHORITIES
Cases:

Pages:

Barker v. Wingo, 407 U.S. 514 (1972) ..4, 5,6,8,9,10,11
13
Doggett v. United States, 505 U.S. 647 (1992). 5, 7,10,
11,13
United States v. Marion, 404 U.S. 307 (1971) 8, 9, 11
State v. Romar, 2007-K-2140 (La. 2008), 985 So.2d
722 .................................................................. 8,9,10,12
State v. Reaves, 376 So.2d,136 (La. 1979). ................. 9
Constitutional Provisions:
U.S. Const. Amdt. 6, ................................................... 2
U.S. Const. Amdt. 5, ................................................... 2
U.S. Const. Amdt. 14, ................................................. 2
Louisiana Statutes
La. C.Cr. P. art. 578, ................................................ 5,8
La. C.Cr. P. art. 579, ................................................ 5,8

1

PETITION FOR A WRIT OF CERTIORARI
TO THE CITY COURT OF ZACHARY, LOUISIANA
____________
Petitioner Mark Anthony Spell respectfully prays
that a writ of certiorari issue to review the judgment
and decision of the City Court of Zachary, Louisiana
entered in this matter on the 5th day of, August 2021.
OPINION BELOW
No court has issued an opinion; the rulings and a
decision were made by the initial trial court, Zachary
City Court, Hon. Judge Lonny Myles presiding.
Because the matter was a misdemeanor, review by the
Court of Appeal, First Circuit was discretionary, and
denied on February 18, 2021. Review by the Louisiana
Supreme Court was discretionary and denied on May
11, 2021. The rulings are reprinted at Appendix A, 1a,
3a and Appendix C, 23a.
JURISDICTION
Jurisdiction is appropriate under the provisions of
28 U.S.C. 1257 (a); Petitioner’s brief is timely filed
within the special delay allowed by the Order of this
Court dated July 19, 2021. (Order List, 594 U.S.
7/19/2021)

2
CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment, U.S. Const., Amdt. 6
reads,
“In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial . . ..”
The Fourteenth Amendment, U.S.Const.,Amdt.
14, section 1, reads:
“… No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the Unied States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law. ...”
STATEMENT OF THE CASE
Defendant Mark Anthony Spell, “Pastor Spell” has
gained national attention for his refusal to close his
church, Life Tabernacle, during the Covid-19
emergency declared by Governor John Bel Edwards of
Louisiana. While Pastor Spell was under twenty-fourhour surveillance by local authorities for that refusal,
he was arrested in connection with an incident caught
on surveillance. During the bonding process for that
arrest, local authorities scoured old records for any
other offenses and discovered a speeding ticket
allegedly issued to Pastor Spell on or about May 23,
1999. An arraignment had been held back on June 16,
1999, for that citation, and a bench warrant issued
when Pastor Spell allegedly failed to appear. Pastor

3
Spell did not abscond from the jurisdiction, always
lived locally, and became prominent as the pastor of
Life Tabernacle Church in Central, Louisiana.
Neither the City Court of Zachary nor the Zachary
City Prosecutor undertook any steps to further the
prosecution, or to notify the State of Louisiana or
Department of Motor Vehicles of an outstanding
bench warrant.
When he was arrested on April 21, 2020, Pastor
Spell was notified of the old ticket and warrant on
May 20, 2020, nearly 21 years after the initial citation.
He appeared at Zachary City Court on July 15, 2020
for arraignment.
Pastor Spell filed and argued a Motion to Quash
the citation based upon his Sixth Amendment right to
a speedy trial. That motion to quash was denied, and
Pastor Spell was convicted in absentia, over objection
of counsel, Judge Myles having denied his request to
appear by Zoom conference or video, as had been as
allowed and encouraged by Louisiana Supreme Court
rules at the time of hearing.

4
REASONS FOR GRANTING THE PETITION
The Court should correct Louisiana’s
statutorily
created
and
unconstitutional
passive “waiver” system in which one action of
a defendant waives his right to speedy trial
forever, without a showing of whether such a
waiver is knowing and intentional or any other
factor.
Nearly half a century ago this Court held that a
defendant's constitutional right to a speedy trial
cannot be established by any inflexible rule but can be
determined only on an ad hoc balancing basis, in
which the conduct of the prosecution and that of the
defendant are weighed. A trial court should assess
such factors as the length of and reason for the delay,
the defendant's assertion of his right, and prejudice to
the defendant. Barker v. Wingo, 407 U.S. 514 (1972).
In this case The City Court of Zachary allowed the
prosecution of a misdemeanor traffic ticket after the
passage of nearly twenty-one years between the
issuance of the ticket, the original arraignment, and a
subsequent notice to the Defendant to appear and
answer in court. The trial court specifically ruled that
Barker case did not apply because the Defendant was
not in jail during the period of time that the matter
was pending. (Ap. “C”, p. 18a). This result will always
be allowed in Louisiana, and its Code of Criminal
Procedure is implicated, because though it sets out a

5
hard time limit of one year for the prosecution of
misdemeanors, (La. C.Cr.P. art. 578, Ap. “D”, p. 24a)
it allows that year to be “interrupted” by the failure of
a defendant to appear in court if notice “appears in the
record.” (La. C.Cr. P. art. 579, Ap. “D”, p. 25a) That
interruption lasts and the limitations period does not
start again until the defendant appears in the specific
court where he originally failed to appear, regardless
of any other contact the defendant may have with the
legal system and regardless of any other actions or
inactions of the prosecutor. (La.C.Cr.P. art.579 C., p.
25a)
Without any consideration of prejudice to the
defendant in the event of the extreme passage of time,
the statute allows the time period to be interrupted
indefinitely, meaning the defendant’s right to speedy
trial is passively waived, forever. This provision is
explicitly contrary to the Court’s ruling in Barker, and
does not square with its balancing test as followed in
the case of Doggett v. United States, 505 U.S. 647
(1992).
The Court in Barker explained that a passive
“waiver” system was impermissible: “Such an
approach, by presuming waiver of a fundamental
right from inaction, is inconsistent with this Court's
pronouncements on waiver of constitutional
rights. The Court has defined waiver as "an
intentional relinquishment or abandonment of a
known right or privilege and stated ‘courts should

6
indulge every reasonable presumption against
waiver.” (Citations omitted) Barker , at p. 526.
The balancing test set out by the Court in
Barker gives the length of the delay as a “triggering
mechanism,” and states that “the length of delay that
will provoke such an inquiry is necessarily dependent
upon the peculiar circumstances of the case. To take
but one example, the delay that can be tolerated for
an ordinary street crime is considerably less than for
a serious, complex conspiracy charge.”
Barker, 407 U.S. at p. 530, 531.
It the present case, the Louisiana statute
prevents a balancing test application. The Louisiana
law allows the prosecution to simply wait until the
defendant shows back up, regardless of the nature of
the crime. If “ordinary street crime” justifies less
delay than a complicated conspiracy case, as the
Court said in Barker, a matter less complicated than
even ordinary street crime such as the speeding
ticket at issue in this case should tolerate less delay.
Under the present statutes the delay can be
While the statute as written greatly
limitless.
simplifies life for the prosecutor, it impermissibly
leaves charges open indefinitely for what could be an
honest mistake or an improper charge on a
misdemeanor that would otherwise be required to be
quickly dealt with or dismissed. A failure of initial
appearance and then to return to the court means that the
defendant may be prosecuted on that citation

7
forever. A period of nearly twenty-one years for
prosecution of a misdemeanor speeding ticket
unconscionably prejudices the Defendant and gives
no recourse for a meaningful defense. An initial
failure to appear removes all responsibility from the
State and the prosecution to move cases to
conclusion, a result impermissible under Barker.
In the case of Doggett v. U.S., 505 U.S. 647
(1992), the Court held that an 8 ½ year delay between
the petitioner’s indictment and arrest violated his
right to a speedy trial. 505 U.S at pp. 657, 658. In that
case the Defendant was charged with a serious crime
(conspiracy to import and distribute cocaine) and was
actually
absent
from
the
jurisdiction
for
approximately two years in Panama and Columbia.
Id., p. 649. The Court held that negligence in getting
the matter to trial was to be held against the
government, and that it was an “unacceptable reason”
and an “inexcusable oversight” Id., p. 657, for
“delaying a criminal prosecution once it has begun.”
Further, the longer the period of delay attributable to
the government’s negligence, the greater the
presumption of prejudice to the defendant will be.
While Doggett dealt with an 8 ½ year delay, six years
of which was attributable to the government, the
delay in this case should make the presumption of
prejudice conclusive, especially considering the ease
in which the prosecution could have been concluded or

8
pursued, and the inability of the defendant after such
a long time to have preserved any evidence in order to
defend himself from this charge.
The trial court’s interpretation of the law in
Louisiana is not faulty; Louisiana has codified a
system of passive waiver of speedy trial rights in
articles 578 and 579 of its Code of Criminal Procedure.
The trial court followed Louisiana Supreme Court
precedent in the case of State v. Romar, 2007-K-2140,
(La. 2008), 985 So.2d 722. In that case, the court
reconciled differences in the Louisiana courts of
appeal by reversing the lower courts which had
quashed the prosecution of the defendant. The
defendant in Romar had been charged with driving
while intoxicated, a “non-capital felony.” Id., p. 7, 985
So.2d 722 at p. 725. The defendant had been charged
in 1997, missed court dates in April of 1998 where he
was represented by counsel and June of 1998 when
his surety bond was revoked and a bench warrant
issued. Over eight years lapsed before the defendant
was brought to court on another charge and within
three months of his appearance on that charge he
brought a motion to quash the DWI, which was
granted by the lower court and the appellate court. In
that case, the Louisiana Supreme Court did not rely
on or cite the Barker decision, and did not conduct a
“balancing” test, but instead cited United States v.
Marion, 404 U.S. 307 (1971), a case in which the Court
held that pre-indictment delays did not implicate the
right to a speedy trial. The Court in Marion extolled

9
the virtues of legislative statutes of limitations, “Such
statutes represent legislative assessments of relative
interests of the State and the defendant in
administering and receiving justice; they ‘are made
for the repose of society and the protection of those
who may [during the limitation] . . . have lost their
means of defence.’
These statutes provide
predictability by specifying a limit beyond which there
is an irrebuttable presumption that a defendant's
right to a fair trial would be prejudiced.”
United States v. Marion, 404 U.S. 307, at 322 (1971).
(citations omitted.)
The problem with the Louisiana Supreme Court’s
decision in Romar is that the statutes of limitation
lose their meaning and the predictability and fairness
cited in Marion if the statutes themselves provide for
an interruption that is limitless, depends solely on the
behavior of the defendant, and constitutes a passive
waiver of the right to a speedy trial that Barker
warned against. In Romar the Court allowed that an
outstanding bench warrant for a failure to appear
could be allowed to be outstanding indefinitely, acting
as a “trip wire” for prosecution to begin again when
the defendant committed some other act bringing
himself to a court’s attention. 985 So.2d 722 at p. 727.
Previous to the Romar decision, the State of
Louisiana adopted the principles of Barker in the case
of State v. Reaves, 376 So.2d 136, (La. 1979). In that

10
case, like the case at bar, the underlying offense was
alleged to be a misdemeanor, “possession of a single
marijuana cigarette. . .” Id, p. 137. The defendant was
arrested and charged in that matter and appeared at
all stages of the proceedings. In that case, the delay
was only four months from initial charge to the filing
of a motion to quash-from January 27, 1979, until
April 18, 1979. No speedy trial motion was ever filed
by the Defendant.
The State had continued the trial on four
occasions, the last time because their witness again
failed to appear. When a further continuance was
denied, the State nolle prossed and rebilled the
defendant on the same day in order to continue the
prosecution. The defendant then filed a motion to
quash and brought the issue of speedy trial before
the court. The trial court granted the motion to
quash on speedy trial grounds, and the State
appealed the motion to quash directly to the
Louisiana Supreme Court. The Court analyzed the
case under the principles of Barker and ruled in
favor of the defendant.
Petitioner in this case applied to the
Louisiana Supreme Court to consider the
Constitutional precedents, the Barker and Doggett
cases, and to reconcile the differences between
Romar and Reaves in interpreting Louisiana’s Code
of Criminal Procedure, to no avail.
For the
Louisiana Supreme Court to leave the Romar case

11
untouched in light of the clearly egregious facts of
this case means that the law in Louisiana permits a
passive waiver of the Constitutional right to a
speedy trial, which is impermissible according to this
Court’s precedents. A one-time failure to appear,
even assuming that the State has the correct
defendant, cannot mean that a misdemeanor
defendant may be prosecuted forever and be
consistent with the balancing tests in Barker.
Minority opinions in this Court’s cases of United
States v. Marion and Doggett v. United States reach
opposing opinions on whether or not the Sixth
Amendment right to speedy trial allows an accused
a right of “repose.” (Compare the dissenting opinion
of Justice Thomas in Doggett to the concurrence of
Justice Douglas in Marion.) Justice Thomas noted
that the Due Process clause protects defendants
from “fundamentally unfair treatment.” 505 U.S.
647 at p. 666. Petitioner submits that a time span of
twenty-one years for the minor offense of speeding is
fundamentally unfair in that Petitioner’s defense is
completely compromised by the passage of time for
such a minor offense. Due Process is also implicated
when statutes of limitations are completely
subsumed by the exceptions created in the statutes.
The expectation of the public and the “reasonable
man” are that the time for prosecution of
misdemeanors and petty crimes will expire after some
reasonable period, usually provided by statute, and

12
that serious crimes, such as homicide, manslaughter,
and serious sexual crimes will take longer to expire.
The unreasonable suspension of prosecution for petty
crimes for an indefinite period causes a large backlog
of warrants in the courts of limited jurisdiction, and
an unreasonable apprehension of the populace
towards police, fearing prosecution from some yearsold petty crime.
Finally, the ability of the State or prosecuting
jurisdiction to hold in abeyance a citation and warrant
indefinitely is a tool too amenable to abuse. While a
defendant maintains a popularity in the local
jurisdiction, he may never again see a traffic ticket.
When a defendant is no longer a favored person, he
may be picked up by the State by surprise at the whim
of a local official, long after an assumed statute of
limitations has run for a misdemeanor, as a tool to
suppress unwanted behavior or unpopular opinion. A
hidden charge could be held, like a secret weapon,
until needed against a particular defendant, perhaps
used to buttress an otherwise unlawful arrest. The
time and date of an event would be nearly impossible
to challenge since all alibi evidence would be lost after
a long period of time. Evidence normally accessible,
such as radar calibration records, would be dependent
upon the State to maintain, when it would normally
be accessible within a reasonable time period after a
citation. Louisiana’s Code of Criminal Procedure,
articles 578 and 579, as interpreted by the Louisiana

13
Supreme Court in Romar are violative of the U.S.
Constitution. The Sixth Amendment’s guarantee of a
speedy trial, as interpreted by this Court in Barker
and Doggett and the Fifth and 14th Amendments Due
Process clause provide this court with reason to
review the statutes of Louisiana’s Code of Civil
Procedure as cited in this case find them to be
unconstitutional due to the implied passive waiver
they create to the right of speedy trial and to the
violation of Due Process when the exceptions to
statutes of limitations subsume the rule entirely.
CONCLUSION
For the foregoing reasons, Pastor Spell
respectfully requests that this Court issue a writ of
certiorari to review the judgment of the City Court of
Zachary.
Respectfully submitted,

Jeffrey S. Wittenbrink
Counsel of Record
331 St. Ferdinand Street
Baton Rouge, Louisiana 70802
(225) 308-6850
jwittenbrink@thelawyerbr.com

APPENDIX

1a
Appendix of
A the SUPREME
Appendix A — opinion
COURT OF THE STATE OF LOUISIANA,
DATED MAY 11, 2021
THE SUPREME COURT OF
THE STATE OF LOUISIANA
No. 2021-KK-00403
STATE OF LOUISIANA,
VS.
MARK ANTHONY SPELL.
IN RE: Mark Anthony Spell - Applicant Defendant;
Applying For Supervisory Writ, Parish of East Baton
Rouge, Zachary City Court Number(s) 99-0672, Court of
Appeal, First Circuit, Number(s) 2020 KW 0867;
May 11, 2021
Writ application denied.
WJC
JLW
SLC
JTG
JBM
PDG
Hughes, J., would grant.

2a
Appendix A
Supreme Court of Louisiana
May 11, 2021
/s/ 			
Chief Deputy Clerk of the Court
For the Court

3a
Appendix
APPENDIX B —
ORDERBOF THE STATE
OF LOUISIANA COURT OF APPEAL, FIRST
CIRCUIT, DATED FEBRUARY 18, 2021
STATE OF LOUISIANA COURT
OF APPEAL, FIRST CIRCUIT
NO. 2020 KW 0867
STATE OF LOUISIANA,
VS.
MARK ANTHONY SPELL.
IN RE: Mark Anthony Spell, applying for supervisory
writs, Zachary City Court, Parish of East Baton Rouge,
No. 99-0672.
Feb 18 2021
BEFORE: WHIPPLE, C.J., CHUTZ AND WOLFE, JJ.
WRIT DENIED.
				VGW
				WRC
				EW
COURT OF APPEAL, FIRST CIRCUIT
/s/

DEPUTY CLERK OF COURT
FOR THE COURT

4a
Appendix OF
C TRANSCRIPT OF
APPENDIX C — EXCERPTS
THE PARISH OF EAST BATON ROUGE,
ZACHARY CITY COURT, STATE OF LOUISIANA,
DATED AUGUST 5, 2020
PARISH OF EAST BATON ROUGE
ZACHARY CITY COURT
STATE OF LOUISIANA
HONORABLE JUDGE LONNY A. MYLES
WEDNESDAY, AUGUST 5, 2020
DOCKET NO. 99-0672 - SPEEDING (05/23/99)
CITY OF ZACHARY
VERSUS
MARK ANTHONY SPELL
Zachary City Court
Zachary, Louisiana
[4]CITY OF ZACHARY VERSUS
MARK ANTHONY SPELL
DOCKET NO. 99-0672 - SPEEDING (05/23/99)
THE COURT:
All right. This is the matter of the City of Zachary
versus Mark Spell.
You can sit back there if you wish to, Mr. Wittenbrink.
If you want to sit back further, that is fine with me, as
long as you speak up.
Is your client going to come in?

5a
Appendix C
MR. WITTENBRINK:
Well, sir, he would like to come in, but he is not going
to wear a mask.
THE COURT:
Well, he’s not coming in then.
MR. WITTENBRINK:
I understand.
THE COURT:
Are you going to waive his presence?
THE WITTENBRINK:
Well, I’m going to file -- I want to note an objection for
the record, that he is not able to come in without a mask.
THE COURT:
That’s fine.
MR. WITTENBRINK:
I have another witness, his wife, Marla Shaye Spell.
She would like to come in. She does not want to wear a
mask.

6a
Appendix C
THE COURT:
[5]She is not coming in.
MR. WITTENBRINK:
So, I want to make that an objection.
THE COURT:
You can make that objection, that’s fine.
MR. WITTENBRINK:
Are we on the record? Is this recorded on the record?
Do you-all keep a record?
THE COURT:
Yes, we are on the record.
MR. WITTENBRINK:
Okay.
MR. DUPRE:
Have we started yet?
-- OFF THE RECORD
-- BACK ON THE RECORD --

7a
Appendix C
THE COURT:
All right. Now, you had -- I think, you had something
else you wanted to argue, Mr. Wittenbrink?
MR. WITTENBRINK:
Yes, Your Honor. Preliminary, if Ms. Shaye Spell were
in here, we would ask the Court -- have a motion for the
Court to recuse himself.
Both Mr. Spell and Mrs. Spell appear that you have
represented them on many occasions in the last 20 years.
And that Mr. Spell has appeared before you personally
to sign documents, have documents notarized, and
transactions [6]completed by you.
And he believes it is improper for you to preside over
this proceeding because all during that time, apparently,
there was a bench warrant that you would have been in
position to know about more than him, and that you didn’t
notify him.
So, he has formally asking for you to recuse yourself
and I am as well, and that would be our motion to recuse.
We think it is improper to move forward with you as the
trier of facts, and that you should recuse yourself.
THE COURT:
Well, I’m not going recuse myself, because number
one, I would have to have -- normally, when you recuse

8a
Appendix C
yourself, I have to have information that is against your
client. And I don’t have any information that I know
against your client.
It was 21 years ago, Mr. Wittenbrink. I knew just
about everybody in Zachary. If I would have spent my life
back then calling everybody that missed court, I would
have spent most of my calling people.
Now, have I called a couple of people in that time, yes.
I’m not going to lie to you, I have. But do I call everybody,
heck, no. I didn’t call -- first of all, I don’t remember -- I
did a lot of work for [7]Reverend Bervick Spell. Now, Mark
came in and did some stuff for Reverend Bervick Spell,
but I don’t really remember offhand doing stuff for them.
But I am not going to recuse myself.
If I recuse myself on every case in Zachary City Court
that I knew the people, I wouldn’t have -- especially, 21
years ago, I wouldn’t have heard many things. So, I don’t
recuse myself.
Secondly, do you have that motion to quash again, that
you are going to put up?
MR. WITTENBRINK:
Yes, Your Honor. In regard to the Motion to Quash,
trying to prosecute a misdemeanor within a year of the
action, under 578, no trial should be commenced or a bail
obligation be enforced on a misdemeanor case after a year
from the date of institution of the prosecution.

9a
Appendix C
579(A)3 says that prosecution is interrupted. The
period of limitation is interrupted, if he fails to appear at
any proceeding pursuant to actual notice. It says proof
of which appears in the record. So, that burden would be
on the prosecutor.
But that the Court is seeking to prosecute Mark Spell
after a lapse of 21 years of time. And we would suggest
to the Court -- you know, I followed the whole history of
this statute and speedy trial.
[8]A speedy trial, is something that is not just a
statutory right, Judge, but it is a right that is protected
by the Constitution of the United States and protected by
the Constitution of the State of Louisiana. And I looked
at the whole history of a speedy trial in Louisiana, and
there was originally a split in the circuits.
The First Circuit, and another circuit, it came down
on the side that, if you didn’t appear in court, the process
was interrupted, period. And the Second and Third
Circuit came down and said, no, if you didn’t appear in
court, simply stop the time for a period of time, basically,
another year.
And the court -- excuse me, the prosecution of the
state and the city, whoever is prosecuting, has the burden
then to come back and make a reasonable effort to find
the defendant and bring them to trial.
Now, that view of those two circuits, in my opinion, is
consistent with the case from the United States Supreme
Court and is still the law; and that is Barker versus Wingo.

10a
Appendix C
The United States Supreme Court said it is a
balancing test, that you can’t make a single rule for all
cases and speedy trial because speedy trial is slippery.
The defendant may not want a [9]speedy trial.
The process of a speedy trial may be in favor of the
prosecution. So -- so, the Court has to weigh and balance
the length of time and the circumstances, to say whether
or not it’s reasonable for a person to come to trial.
And so, I would submit to you, Your Honor, under
Barker versus Wingo, and even though it may have been
-- and I think they have to prove -- it may have been Mr.
Spell’s fault, if he did not come to a court appearance back
in 1999.
But I would submit to you, Your Honor, that Mr.
Spell has now been a public figure for quite some time.
He wasn’t back then. He has now been a public figure for
quite some time.
And I have to submit -- I’m going to show this to the
prosecutor here.
MR. WITTENBRINK:
Mr. Dupre, this is an Official Driving Record from
the Department of Public Safety; do you want to take a
look at that?

11a
Appendix C
MR. DUPRE :
(Viewing document.)
MR. WITTENBRINK:
So, I don’t have a witness here, Judge. But I do have
an official certification of the driving record for Pastor
-- for Mark Anthony Spell, [10]addressed 9323 Hooper
Road. And they have one infraction on his record, and
that is certified as of 8/4/2020.
And he had a suspension of his driver’s license from
April 20, 2016, to July 13, 2016. And if Mr. Spell were here,
he would tell the Court that that infraction was because
he gave away a vehicle and didn’t get the plate and turn
the plate in.
Anyway, that is the only thing he has on his driving
record, period. And that, if this bench warrant is still
outstanding, it should have at least appeared. He has had
his driver’s license renewed seven times.
So, there is no reasonable notice to Pastor Spell, other
than the original ticket, if indeed he got the original ticket.
And so, in connection with this motion to quash, I would
like to file this into evidence.
MR. DUPRE:
All right.

12a
Appendix C
THE COURT:
Well, now, I will let -- for the weight of it, I will -MR. WITTENBRINK:
Sure.
(The exhibit is marked as Exhibit Defense No. 1 for
identification and attached hereto.)
[11]THE COURT:
I don’t know how much weight I’m going to give that.
I don’t think that is really applicable myself.
MR. WITTENBRINK;
Well, just in conclusion, Judge, I do think it is the state
of the law under United States Supreme Court principles
at least, would be that some time -- and I can’t tell you what
time -- but the Court has to -- would have to decide that.
But within some reasonable time, after Mr. Spell got
his ticket, if he got a ticket, and some reasonable time after
he failed to appear, there would have to be some showing
of some effort to contact Mr. Spell telling him; that he had
an outstanding warrant and put it on his driver’s license,
so that he would get that flag and that he would pay it.
If Pastor Spell were here without a mask, he would
say he pays all of his obligations. He has a perfect driving

13a
Appendix C
record, as far as he knows, and he doesn’t recall anything
about this ticket because it’s 21 years ago. And it is hardly
fair to make him come and appear to try to defend it.
So, with that I rest my motion to quash.
THE COURT:
[12]Okay.
MR. DUPRE:
Your Honor, can I close the door?
THE COURT:
Yes.
BY MR. DUPRE:
Your Honor, the City of Zachary submits that the Code
of Criminal Procedure Articles 578 and 579 are clear, and
when applied to the facts of the case at bar, Louisiana law,
specifically, the Code of Criminal Procedure Article 579
requires that Mr. Spell’s failure to attend Court on June
16, 1999, after being duly noticed of that date, resulted in
the Article 578 one year time limitation being interrupted.
The Code of Articles are clear and unambiguous.
Defense Counsel argues only that the law as written is
not fair, and application of the law to the facts of our case
somehow deprives the defendant of a speedy -- right to a
speedy trial.

14a
Appendix C
The only jurisprudence cited by Mr. Wittenbrink is
State versus Romar, which is a 2008 Louisiana Supreme
Court case and Barker versus Wingo, which is a 1972 US
Supreme Court case.
In Romar, the defendant pleaded not guilty to DUI.
He failed to appear for a trial. A bench warrant was issued,
and he was absent for more than eight years, until [13]he
was arrested on another charge.
Defense Counsel in Romar did exactly what defense
council in the case at bar did, namely, they filed a motion
to quash, they argued that the defendant was not hiding,
and that the State took no steps to locate the defendant.
The Louisiana Supreme Court in Romar held that
there is no burden on the prosecution to search for a
defendant who fails to appear after receiving notice.
I attempt to rest there, Judge, But just to address his
constitutional argument, I will go forward.
The other case cited by Defense Counsel is Barker
versus Wingo. In Barker versus Wingo, the defendant
was arrested and sat in jail for ten months, before he was
able to bond out. In our case, Mr. Spell has not spent a
single night in jail.
In Barker all the delays and continuances were caused
and requested by the prosecution. In our case, the 21-year
delay was caused solely by Mr. Spell failing to come to
court after receiving notice to do so.

15a
Appendix C
The Barker Courts, this is the US Supreme Court,
the Barker Courts balancing test that Mr. Wittenbrink
would like us to apply, would like the Court to [14]apply,
is designed to determine whether the State’s delay in the
prosecution is a violation of a right to speedy trial. But in
our case, the only person who can be held responsible for
not receiving a speedy trial is Mr. Spell himself.
Defense Counsel in the case at bar is correct in that
the right to a speedy trial is a fundamental right, it is a
constitutional fundamental right to due process. But the
Barker Court, ultimately held that the Sixth Amendment
does not require a fixed time period.
It is different from what he said. It doesn’t say that a
fixed time period is unconstitutional. It says that the State
is not required to fix itself to a time period.
That is important because Barker was decided in
1972. And the Constitution doesn’t require a strict time
limitation to try cases. Despite that whole thing, Louisiana
did exactly what the Constitution didn’t require. It gave
defendants more than the Constitution requires, By
enacting 578 in 2006, the State imposed on itself a strict
time limitation to try cases.
Again, 578 gives defendants more time -- I’m sorry,
a more definite time than the US Constitution requires
as held by the [15]Supreme Court. Article 578 deals with
the State’s responsibility in the speedy trial arena, and
Article 579 deals with the exceptions to the hard and fast
time limitations.

16a
Appendix C
In other words, 579 addresses what the Barker Court
calls the defendant’s responsibility in the area -- in the
arena of a speedy trial.
In fact, parts of 579 at issue here between speedy -- the
interplay between speedy trial rights and delays that are
caused by a defendant’s actions. They are stated by the
US Supreme Court as being so obvious as to almost not
warrant mention when the Court stated, quote, we hardly
need to add that if the delay is attributable to defendant,
then his waiver -- referring to his waiver to a speedy trial
-- quote, may be given effect.
In other words, 578 does not only comport with
Barker, they are in legislative codification of Barker. Both
the statutes and the Barker Court are clear, trial delays
caused solely by the defendant are equal to a defendant’s
waiver of their right to a speedy trial.
Mr. Wittenbrink does not argue that there is an
ambiguity in the law to which his client is entitled to the
benefit of the doubt, he does not present any controlling
jurisprudence that holds the [16]prosecutor responsible
for searching for a defendant, who voluntarily stops his
prosecution because he can’t.
In fact, all the controlling juris diction states that
there is a burden on the prosecutor to search for a
defendant who fails to appear after receiving notice, that
is the holding of Romar, which he cited, that is the holding
of State versus Stuart, which is a 2017 Louisiana Supreme
Court Case.

17a
Appendix C
In fact, the Romar Court also said in Louisiana an
arrest warrant does not become stale with the passage of
time, citing Louisiana Code of Criminal Procedure Article
205. So, the warrant never dies.
The law is clear and the law is constitutional. The only
person responsible for Mark Anthony Spell not receiving a
speedy trial is Mark Anthony Spell. The City of Zachary
respectively submits that this instant motion be denied.
THE COURT:
Anything else, Mr. Wittenbrink?
MR. WITTENBRINK:
Just briefly, Judge, Barker versus Wingo, did say that
there is a balancing test. The balancing test requires that
the State consider the length of time that has passed; and
also, that there is nothing, there’s no presumption that can
be made, [17]even in the statute where the defendant is
required to take an affirmative act and that that failure to
take that affirmative act acts as a presumption of waiver.
And that is exactly what the statute does. The statute
says he’s got to come back to court. His failure to come
back to court means the period of time is interrupted
forever, So, the holding in Barker is there’s got to be a
balancing test.
We submit that a period of 21 years without even a
notation on Mr. Spell’s driving record, just the simplest

18a
Appendix C
of clerical acts could have prevented all of this, this ticket
would been paid long ago. If it was, indeed given, anything
that even the simplest of clerical acts to apprise Mr. Spell
of the ticket, his right to trial, or further the prosecution
has not been done.
And that, therefore, under the United States Supreme
Court, this is an unfair prosecution.
THE COURT:
Well, I started out as a public defender in 1974. and
Wingo was very much a big item back in those days. I
don’t agree with you about what Wingo says.
Wingo says, as far as I’m concerned, [18]I’ve got
somebody that is in jail, that is what it originally started
about. Should he have a speedy trial so we can get him out
of jail, and that’s what that started about. Should have,
yes, he should have a speedy trial to get him out of jail.
Your client wasn’t in jail. To me, the law is clear in
Louisiana. If you miss a trial -- a court date, it is suspended
until you show back up, and then, it starts back up again.
So, your motion to quash is denied.
All right. Are we ready to go to trial?
MR. DUPRE:
Yes, sir.

19a
Appendix C
THE COURT:
All right. Call your first witness.
MR. DUPRE:
I call Bruce Chaisson.
THE COURT:
Come around, Mr. Chaisson, you will be sworn in.
MS. QUWANDA JACKSON:
(Swears in witness.)
MR. BRUCE CHAISSON:
I do.
MS. QUWANDA JACKSON:
Thank you.
THE COURT:
And for the record, Mr. Wittenbrink, [19]you are
waiving the presence of your client?
MR. WITTENBRINK:
Well, Judge, I am only waiving --

20a
Appendix C
THE COURT:
Subject to your -MR. WITTENBRINK:
That is correct.
THE COURT:
Okay. Okay. That’s fine.
BRUCE CHAISSON
ZACHARY POLICE DEPARTMENT
POLICE OFFICER - RETIRED
DIRECT EXAMINATION BY MR. DUPRE:
Q. Please give your name and address? For the record,
you can use 4510 Main Street, if you would like as a former
officer.
A. Bruce Chaisson, 4510 Main Street, Zachary,
Louisiana.
Q. Were you employed on Sunday, May 23, 1999?
A. Yes, I was.
Q. What was your job?

21a
Appendix C
MR. WITTENBRINK:
Objection. Go ahead.
THE COURT:
Do what?
MR. WITTENBRINK:
No. No. I withdraw it, Judge.
THE COURT:
Okay.
BY MR. DUPRE:
Q. What was your job?
A. I was running radar on Old Baker Road.
***
[44]THE COURT:
May 23?
MR. DUPRE:
Yes. The ticket was issued on that date.

22a
Appendix C
MS. QUWANDA JACKSON:
That is the ticket issued on that date.
THE COURT:
Oh.
MR. DUPRE:
That is the ticket.
MS. QUWANDA JACKSON:
That is the form when he signed for that citation.
THE COURT:
All right. Okay.
MR. DUPRE:
Your Honor, prosecution rests.
THE COURT:
All right. Mr. Wittenbrink, do you got any witnesses?
MR. WITTENBRINK:
Your Honor, I just -- I have the witnesses here, and
they are objecting to having to appear with the masks on.
I would just enter that objection in the record.

23a
Appendix C
THE COURT:
So ordered. All right.
Court is going to find him guilty of speeding. The fine
is going to be 30 days [45]in jail, suspended on payment of
the fine. The fine is $125 dollars plus costs on the contempt.
It is going to be six months in jail, consecutive to that. The
fine is going to be $500 dollars.
I will give him two months to pay it. You can appeal it.

24a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY PROVISIONS

CCRP 578
CHAPTER 2. LIMITATIONS UPON TRIAL
Art. 578. General rule
A. Except as otherwise provided in this Chapter,
no trial shall be commenced nor any bail obligation be
enforceable:
(1) In capital cases after three years from the date of
institution of the prosecution;
(2) In other felony cases after two years from the date
of institution of the prosecution; and
(3) In misdemeanor cases after one year from the date
of institution of the prosecution.
B. The offense charged shall determine the applicable
limitation.
Acts 2006, No. 123, §1, eff. June 2, 2006.

25a
Appendix D
CCRP579
Art. 579. Interruption of time limitation
A. The period of limitation established by Article 578
shall be interrupted if:
( 1) The defendant at any time, with the purpose to
avoid detection, apprehension, or prosecution, flees from
the state, is outside the state, or is absent from his usual
place of abode within the state; or
(2) The defendant cannot be tried because of insanity
or because his presence for trial cannot be obtained by
legal process, or for any other cause beyond the control
of the state; or
(3) The defendant fails to appear at any proceeding
pursuant to actual notice, proof of which appears of record.
B. The periods of limitation established by Article 578
shall commence to run anew from the date the cause of
interruption no longer exists.
C. If the defendant fails to appear in court pursuant
to any provision of this Article and the defendant
is subsequently arrested, the periods of limitations
established by Article 578 of this Code shall not commence
to run anew until the defendant appears in person in open
court where the case on the original charge is pending,
or the district attorney prosecuting the original charge
has notice of the defendant’s custodial location. For

26a
Appendix D
purposes of this Paragraph, “notice” shall mean either
of the following:
(1) Filing in the court record by either the defendant
or his counsel advising the court of his incarceration with
a copy provided to the district attorney and certification
of notice provided to the district attorney.
(2) Following the seventy-two hour hearing provided
by Article 230.1 of this Code, actual notice of arrest is
provided to the district attorney and filed in the record of
the proceeding of which the warrant against the defendant
was issued.
Amended by Acts 1984, No. 671, §1; Acts 2013,
No. 6, §1.

